                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       The Inspector General
                                                       Washington, D.C. 20230




February 19,2010

The Honorable Mark Pryor
United States Senate
255 Dirksen Senate Office Building
Washington, DC 20510

Dear Senator Pryor:

Thank you for your interest in the work of the Office ofInspector General (OIG) and its
oversight of programs funded by the American Reinvestment and Recovery Act. The four points
referenced in your January 27 letter are listed below along with my response to each:

   1.	 How many allegations or cases ofwaste, Faud, or abuse in the spending ofRecovery Act
       funds has your office received or developed, how many have been advanced to an agency
       for administrative action or to a US attorney for prosecution, and what is the status of
       current investigations?

       We have received nine allegations of waste, fraud, and/or abuse related to the spending of
       Recovery Act funds. Of the nine allegations,
          •	 five allegations did not result in an investigation, and
          •	 four allegations have been pursued by our investigations office. Of these, one was
             referred to the National Oceanic and Atmospheric Administration (NOAA) for
             administrative action. The remaining three investigations are ongoing.

   2.	 Please identifY the programs associated with each ofthe leads or cases listed in question
       one above.

       The following programs were associated with the allegations:
          •	 National Institute of Standards and Technology (NIST) construction grants
          •	 NOAA habitat restoration grants
          •	 NOAA tidal contracts
          •	 Economic Development Administration grants
          •	 National Telecommunications and Information Administration broadband grants

   3.	 Please provide all audit and inspection reports that you have issued regarding Recovery
       Actfunds and identifY any audits or inspections planned or underway (if available online,
       a list ofcompleted reports with associated website links will suffice). Please also identifY
       any recommendations that you have made to improve safeguards over Recovery Act
       funds that have not been accepted or implemented.
       We have completed five evaluation / audit reports; there are currently two evaluations
       underway. We have also published an OIG Recovery Act Agency and Program Oversight
       plan that outlines work planned for FY201 O.

       The following link contains the OIG reports and plans related to the Recovery Act:
       http://www.oig.doc.gov/recovery/recovery work.html. Also, visit
       http://www.oig.doc.gov/oig/reports/ for all other OIG reports. The list of reports includes
       two Census Quarterly Reports (September and December) that discuss Recovery Act
       oversight activities related to the 2010 Decennial Census. Also, the report Top
       Management Challenges Facing the Department of Commerce and our Semiannual
       Reports to Congress contain sections relevant to Recovery Act-funded programs.

       It should be noted that our initial work focused primarily on outreach and training. We
       conducted over 90 training sessions for over 3,100 Department of Commerce employees
       involved in procurement, grants, and programs, as well as cunent and potential recipients
       of Recovery Act grants from the five Depm1ment bureaus that received funds. Additional
       information on these training sessions can be found at the following link:
       http://www.oig.doc.gov/recovery/training.html.

       As of this date, all of the recommendations that OIG has made related to Recovery Act
       Programs have been accepted by the Depal1ment operating units.

   4.	 Please provide an estimate ofthe amount or percentage ofyour oversight work that will
       be dedicated to Recovery Act spending in FY 2010 and 2011.

       The OIG established the Recovery Act Task Force, a dedicated team of experienced
       professionals, to coordinate oversight of the funding received. Cunently 18 employees
       are assigned exclusively to Recovery Act work, with 2 vacant positions posted. The staff
       is supplemented by OIG auditors when additional help is required. Throughout 2010 and
       2011, our oversight will increase along with the program's obligation and spending
       activities. During that time we will be adding additional employees to complete our
       planned oversight work.

       If we can provide any further information, please contact Ann C. Eilers, Project Lead,
       Recovery Act Oversight Task Force, at 202.482.4328, or myself, at 202.482.4661.

Sincerely,




Todd Zinser
